                                                                                 W-EV-BIA-0005-2008
                     United States Department of the Interior
                                      Office of Inspector General
                                           Washington, DC 20240



                                                                                    March 7, 2008



The Honorable Pete V. Domenici
United States Senate
Washington, D.C. 20510-3101

Dear Senator Domenici:

        In response to your November 16, 2007 letter, we reviewed allegations that the Navajo
Nation misused federal funds by sending 362 representatives to a National Indian Education
Association (NIEA) conference in Hawaii during October 2007. Based on attendance, funding,
and conference information obtained from the NIEA, the Navajo Nation, and the Bureau of
Indian Education (BIE), we concluded that the Navajo Nation’s number and background of
representatives at the conference were not unreasonable when compared to the attendance per
capita levels of other Indian tribes and that the conference content met a wide-range of training
needs.

        The conference agenda was extensive and geared toward a wide range of individuals —
ranging from tribal officials, school administrators, and educators, to students. The conference
also featured various keynote speakers and over 200 workshops. In addition, the conference was
promoted by both U.S. Senator Daniel K. Akaka and Congressman Neil Abercrombie. NIEA’s
goal was to bring in the highest attendance ever, and about 3,000 people attended, compared to
about 2,000 at the prior year’s conference in Alaska. Other than the host Native Hawaiians, the
Navajo Nation had the largest number of representatives in attendance. However, when we
compared attendance to tribal enrollment numbers, other tribes had a larger percentage of
attendees per capita. As a result, we concluded that the Navajo Nation’s representation was, in
fact, not among the top 10 tribes in attendees per capita.

         In his response to our request for information, the Navajo Nation’s President stated that
the Nation had sent 61 government employees and elected officials to the conference and had
used federal funds to pay only for 15 Head Start employees to attend. Costs for the remaining
government employees and elected officials to attend the conference were paid using general (or
tribal) funds. The Navajo Nation has the authority to use its own funds as it deems appropriate,
and it is the responsibility of the tribal members to ascertain the appropriateness of tribal fund
expenditures. As part of a follow-up review of the Navajo Nation’s Head Start program
deficiencies, the U.S. Department of Health and Human Services’ (HHS) Office of Head Start
interviewed the Head Start employees about their attendance at the conference and concluded
that there were no problems with these employees attending the conference. Although the
monies involved were HHS’s and not the U.S. Department of the Interior’s, we reviewed a
sample of travel documents provided by the Office of Head Start and found nothing of concern.
        According to BIE officials, the Bureau is responsible for 65 Navajo schools. Of these
schools, 19 schools indicated they did not send anyone to the conference and 14 schools
indicated they sent an average of two to three individuals to the conference. Of the 14 schools, 5
indicated they used federal funds. Overall, the number and type of individual attendees and costs
appeared to be reasonable. About 195 public schools also provide educational opportunities to
Navajo students. BIE officials told us that these public schools receive federal funding and
traditionally represent the largest participation at NIEA conferences. However, because the
Navajo Nation has no jurisdiction over the public schools and the 32 other schools governed by
elected boards, we would have had to contact each school directly to request information, an
exercise which proved unnecessary once we evaluated the NIEA attendance and conference
information.

        If you have any questions regarding this matter, please do not hesitate to contact me
directly, or you may contact Ms. Katie Balestra, our Congressional Liaison, at (202) 208-5745.

                                            Sincerely,



                                            Earl E. Devaney
                                            Inspector General
